                                CLOSEBUT FOR M92100043


complainant) called

alleged that the proposal ignored significant work in their field. The complainant explained that
the subiect was aware of this work because the two had discussed it over the televhone before


intellectual theft and made misrepresentations in his proposal. After the complainant clarified
his allegation in a subsequent letter and telephone conversation, we concluded that he was not
making an allegation of misconduct in science.

        The complainant denied that he was alleging intellectual theft. He said that the subject
was proposing research that the subject himself had devised and that was in some respects
original. OIG examined the proposal and confiied the complainant's assessment. Although
the complainant's letter states that the "proposed research has already been performed by
myself," he subsequently clarified this assertion to mean that he and other researchers had
already used similar techniques to address the same problems and that a casual reader might
assume from the tone of the subject's proposal that the subject proposed the first application of
these techniques in this area.

        OIG examined the proposal to see whether it made false or misleading claims. We
determined that the proposal minimizes previous contributions in this area of research, but avoids
false statements. A careful reader would not be misled and would understand that the subject
had provided an incomplete review of the literature from which it would be difficult to judge the
originality of the proposed research. OIG concluded that the omission of relevant citations
raised questions about the subject's command of the field, but was not evidence that the subject
was attempting to portray the work of others as his own.

        The complainant stated that the "flavor" of the proposal implied a degree of originality
that the work did not possess. He added that he was concerned because reviewers might be
misled into seeing the proposal as far more innovative than it was. This does not constitute an
allegation of misconduct in science.

       This case is closed and no further action will be taken.




Staff Scientist, Oversight

                                           page 1 of 2
Concurrence:




Donald E. BuzzeIli
Deputy Assistqt Inspector General,
Oversight
 ./C,




Assistant Inspector General for Oversight




L. Nancy Birnbaum
Assistant Counsel to the Inspector General



cc: Signatories
        Inspector General




                                        page 2 of 2
